No. 20-1167

In the Supreme Court of the United States
JOSE SUSUMO AZANO MATSURA, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES IN OPPOSITION

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-1167
JOSE SUSUMO AZANO MATSURA, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MEMORANDUM FOR THE UNITED STATES IN OPPOSITION

Petitioner contends (Pet. 26-29) that the court of appeals erred in rejecting his claim that Rehaif v. United
States, 139 S. Ct. 2191 (2019), entitled him to vacatur of
his conviction under 18 U.S.C. 922(g)(5)(B) on plainerror review following trial and sentencing. Review of
the decision below is unwarranted because the decision
is interlocutory. See, e.g., American Constr. Co. v.
Jacksonville, Tampa & Key W. Ry. Co., 148 U.S. 372,
384 (1893). Although the court of appeals denied petitioner’s request for plain-error relief based on Rehaif,
it separately vacated petitioner’s conviction on a count
charging falsification of campaign records, in violation
of 18 U.S.C. 1519, and remanded the case for resentencing. See Pet. App. 29, 58.
The decision’s interlocutory posture “alone furnishe[s] sufficient ground for the denial of ” the petition.
Hamilton-Brown Shoe Co. v. Wolf Bros. & Co., 240 U.S.
(1)

2
251, 258 (1916); see Brotherhood of Locomotive Firemen & Enginemen v. Bangor & Aroostook R.R., 389
U.S. 327, 328 (1967) (per curiam); Virginia Mil. Inst. v.
United States, 508 U.S. 946, 946 (1993) (Scalia, J., respecting the denial of the petition for writ of certiorari);
see also Stephen M. Shapiro et al., Supreme Court
Practice § 4.18 & n.72, at 282-283 (10th ed. 2013) (noting
that the Court routinely denies interlocutory petitions
in criminal cases). If petitioner ultimately is dissatisfied
with the district court’s disposition on remand, and if
that disposition is upheld in any subsequent appeal, petitioner will be able to raise his current claim, together
with any other claims that may arise with respect to his
proceeding, in a single petition for a writ of certiorari.
See Major League Baseball Players Ass’n v. Garvey,
532 U.S. 504, 508 n.1 (2001) (per curiam) (stating that
this Court “ha[s] authority to consider questions determined in earlier stages of the litigation where certiorari
is sought from the most recent” judgment). This case
presents no occasion for this Court to depart from its
usual practice of awaiting final judgment before determining whether to review a challenge to a criminal conviction.
In the alternative, the Court may wish to hold the
petition for a writ of certiorari pending its decision in
Greer v. United States, No. 19-8709 (argued Apr. 20,
2021), and then dispose of it as appropriate in light of
that decision. In Greer, the Court will consider a potentially analogous Rehaif challenge to a defendant’s conviction under 18 U.S.C. 922(g)(1) and 924(a)(2) on plain-

3
error review following trial and sentencing. Accordingly, the Court’s decision in Greer may conceivably affect the proper disposition of this petition. *
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

APRIL 2021

The government waives any further response to the petition for
a writ of certiorari unless this Court requests otherwise.
*

